r-

n

IN THE SUPREME COURT OF THE UNITED STATES

DAVID P MORAN — PETITIONER

AUG \ k cM
OFFICE Or THE CLERK

V

STATE OF FLORIDA — RESPONDENT

ON A PETITION FOR WRIT OF CERTIORARI TO THE FIFTH DISTRICT
COURT OF APPEAL DAYTONA BEACH, FLORIDA

PETITION FOR WRIT OF CERTIORARI

David P. Moran X97428
Columbia C. I. Annex
251 SE Corrections Way
Lake City, FL 32025

RECEIVED
AUG 2 6 2020
•FFICE OF THE CX.ERK
SUPREME COURT, U.S.

n

QUESTION PRESENTED
1. Is Fla. Stat. 924.05l(l)(b) unconstitutional on it's face due to it's conflict with
the due process clause of the U.S. Const. 14th Amend.?
2. Should a motion not being ruled on by the trial judge be automatically
preserved for appellate review with or without an objection being offered?
3. Should a motion not being ruled on by the trial judge be automatically
preserved for appellate review when the issue the motion's contents of is
material to trial?

i

LIST OF PARTIES
Office of the Attorney General
444 Seabreeze Boulevard
Fifth Floor
Daytona Beach, Florida 32118
Office of the State Attorney
Ninth Judicial Circuit
415 North Orange Avenue
Suite 300
Orlando, Florida 32801

RELATED CASES
*Moran v. State, 5D20-1177, Fifth District Court of Appeal. Judgment entered
May 29th 2020.
*Moran v. State, 5D19-1833, Fifth District Court of Appeal. Judgment
entered January 17th 2020.
*State v. Moran, 16-CF-006177-A-OR, Orange County Circuit Court,
Judgment entered April 21st 2020.

li

TABLE OF CONTENTS
QUESTION PRESENTED

1

LIST OF PARTIES ..........

11

RELATED CASES............

11

TABLE OF CONTENTS

■ in

INDEX TO APPENDICES

IV

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS

3

PRELIMINARY STATEMENT

4

STATEMENT OF FACTS

5

SUMMARY OF THE CASE

6

STATEMENT OF CASE

7

REASONS FOR GRANTING PETITION

13

CONCLUSION

14

in

INDEX TO APPENDICES
APPENDIX A. Fifth District Court of Appeal denies petition for writ of habeas
corpus challenging fundamental miscarriage of justice and manifest injustice (Fla.
R. App. P. 9.100)
APPENDIX B. Fifth District Court of Appeal denies motion for rehearing,
certification, and/or written opinion (Fla. R. App. P. 9.330(a))
APPENDIX C. Orange County Circuit Court denies request to strike and amended
motion for reconsideration (Fla. R. Crm P. 3.190 (h)(3)).
APPENDIX D. Fifth District Court of Appeal denies petition for writ of habeas •
corpus alleging ineffective assistance of appellate counsel with authored opinion
(Fla. R. App. P. 9.141 (d)).
APPENDIX E. Excerpt from state's answer to petition for writ of habeas corpus
alleging ineffective assistance of appellate counsel.
APPENDIX F. Original motion for reconsideration submitted by trial counsel.
APPENDIX G. Excerpt from second set of medical records.
APPENDIX H. Excerpt from first set of medical records.
APPENDIX I. Ander's brief filed by appellate counsel.
APPENDIX J. Docket entries from Orange County Circuit Court.
APPENDIX K. Docket entries from Fifth District Court of Appeal.

IV

TABLE AUTHORITIES
CASE LAWS
Skilled Services Corporation v. Reliance Insurance Company 763 So. 2d 1092 4th
DCA 1999

9

Kimball v. Publix Supermarkets 901 So. 2d 293 2nd DCA 2005

9

Rhodes v. State 986 So. 2d 501 FSC 2008

8, 12

Simpson v. State 3 So. 3d 1135 ESC 2009

8

Williams v. Goodwin 2017 U.S. Dist. Lexis 180654 USDC 5th Cir. 2017

10

Chudasama v. Mazda Motors Corporation 123 F. 3d 1353 USCA 11th Cir. 1997 —■ 9
Snook v. Trust Company of Georgia Bank 859 F. 2d 865 USCA 11th Cir. 1988

9

Simmons v. Schriro 187 Fed. Appx. 753 USCA 9th Cir. 2006

10

Willis v. Federal Bureau of Investigation 1999 US App Lexis 7354 USCA DC Cir.
1999.............................................................................................................................. 9
Logan v. Zimmerman Brush Company 455 US 422, 71 L Ed 2d 265, 102 S Ct 1148
USSC 1982

10

RULES
Fla. R. App. P. 9.100..........

IV

Fla. R. App. P. 9.141(d)......

IV

Fla. R. App. P. 9.330(a)......

IV

Fla. R. Crim. P. 3.190 (h)(3)

iv, 11

STATUTES
Fla. Stat. 924.05l(l)(b)

i,8

v

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

The opinion of the Orange County Circuit Court appears at appendix C to the
petition and is unpublished. No opinion was provided in the Fifth District Court of
Appeal denial.

1

JURISDICTION
The date on which the highest state court decided my case was May 29th
2020. A copy of that decision appears at appendix A. A timely motion for rehearing
was thereafter denied on June 19th 2020. A copy of that decision appears at
appendix B.
The jurisdiction of this court is invoked under 28 U.S.C. § 1257(a)

2

CONSTITUTIONAL PROVISIONS
U. S. Constitution Amendment Fourteen

i, 6, 8

...nor shall any state deprive any person of life, liberty, or property without due
process of the law, nor deny to any person within it's jurisdiction the equal
protection of the laws.
Florida Constitution Art. I § 9

6, 8

No person shall be deprived of life, liberty, or property without due process of law.
Florida Constitution Art. I § 2

6

All natural person, female and male alike, are equal before the law and have
inalienable rights
Florida Constitution Art. V § 3(b)(3)

13

May review any decision of a district court of appeal that expressly declares valid a
state statute, or that expressly construes a provision of the state or federal
constitution, or that expressly and directly conflicts with a decision of another
district court of appeal or the Florida Supreme Court on the same question of law.

3

PRELIMINARY STATEMENT
This honorable court is directed to incorporate by reference transcripts and
pleadings from the Orange County Circuit Court. Included in some of the previous
petitions is references to trial, sentencing, motion to suppress, and record on appeal.
(See appendix J) This honorable court is directed to incorporate by reference
pleadings from the Fifth District Court of Appeal. This court must examine previous
pleadings to gain a full understanding of some of the issues presented in this
petition. (See appendix K) This was done as this court has easy online access to
these documents and so the petitioner did not have to submit a large bulk of
documents in the appendix.

4

STATEMENT OF PROCEDURAL FACTS
The following is a listing of relevant trial court proceedings to this writ. (16CF-006177-A-OR) April 25th 2017 Motion to suppress hearing. (RA 96-98) April 28th
2017 Motion to suppress denied. (RA 99-02) July 13th 2017 Motion for
reconsideration submitted. (See appendix F) July 24th 2017 Motion for
reconsideration hearing. (TT 1-18) July 24th 2017 to July 27th 2017 Trial. (RA 112140) March 11th 2020 Request to strike and amended motion for reconsideration.
April 21st 2020 Request to strike and amended motion for reconsideration denied.
(See appendix C)
The following is a listing of relevant appellate court proceedings to this writ.
(5D19-1833) June 21st 2019 Petition for writ of habeas corpus alleging ineffective
assistance of appellate counsel submitted. August 20th 2019 State's answer. (See
appendix E) September 12th 2019 Petitioner's reply. January 17th 2020 Petition
denied with authored opinion. (See appendix D) January 27th 2020 Motion for
rehearing, rehearing en banc, and/or certification submitted. January 29th 2020
Motion for rehearing, rehearing en banc, and/or certification denied.
The following is a listing of relevant appellate court proceedings to this writ.
(5D20-1177) May 18th 2020 Petition for writ of habeas corpus challenging
fundamental miscarriage of justice and manifest injustice submitted. May 29th 2020
Petition for writ of habeas corpus challenging fundamental miscarriage of justice
and manifest injustice denied. .(See appendix A) June 11th 2020. Motion for

5

rehearing, certification, and/or written opinion submitted. June 19th 2020 Motion
for rehearing, certification, and/or written opinion denied. (See appendix B)
SUMMARY OF THE CASE
The sole issue being raised in this writ is the fact that a motion for
reconsideration of a motion to suppress denial was never ruled on by the trial judge
creating a substantial violation of the petitioner's U.S, Const. 14th Amend., his Fla.
Const. Art. I § 9, and his Fla. Const, Art. I § 2 rights to due process of law and equal
protection of the laws. Due process was violated as this issue denied the petitioner
the ability to receive a fair hearing, trial, and direct appeal proceeding. Equal
protection was violated as this issue denied the petitioner the right to a ruling on a
motion that every other petitioner receives in a criminal case.
This issue qualifies as a fundamental error as the failure of the judge to rule
on the motion created a situation in which the statement the petitioner gave could
be used at trial whereas if the judge had granted the motion it would not have been.
The contents of the motion where material to the issue of whether the statement
was given freely and voluntarily and directly relates to the petitioner's "actual
innocence" claim. The state stated in opening arguments "this case is simply about
suicide by cop." (TT 64) Without the ability to use the contents of the statement the
jury would have rendered a not guilty verdict. "An error of the court which goes to
the foundation of the case, or which takes from a defendant a right essential to his
defense on appeal." (Ballentine's Law Dictionary 3rd Edition)

6

This issue also qualifies as a manifest injustice as numerous other petitioners
receive reverse and remands on their cases stemming from this kind of issue. The
error of not ruling on this motion is clear and on the face of the record. "A direct,
obvious, and observable error in a trial court." (Black's Law Dictionary 10th
Edition)
STATEMENT OF CASE
On July 24th 2017 trial counsel informed the judge the motion for
reconsideration he submitted to the court contained newer medical records listing
the name, date, dose, and time of medications the petitioner was being given on the
day that two detectives came to interview him in the intensive care unit of the
hospital. (TT 2-3, 470, See appendix F and G) The judge inquired about certain.
medical records missing as exhibits. Trial counsel proceeds to hand the judge the
missing records. (TT 14_15) The judge asks if there are any other pre-trial motions
to be ruled on. (TT 15) The state asks the judge when a ruling is expected on the
motion. The judge responds before the venire is brought in. (TT 16) Roughly five
minutes later at 10A3 am the venire is brought in and the motion was still not
ruled on. (TT 18)
On June 21st 2019 the petitioner in ground three of his petition for writ of
habeas corpus alleging ineffective assistance of appellate counsel raised the issue
that the motion did get ruled on but was missing from the trial transcripts. On
August 20th 2019 the state rebutted with the theory that the motion did not get

7

ruled on thus not being preserved for appellate review. (See appendix E) On
January 17th 2020 the Fifth District Court of Appeal denied the petition with an
authored opinion. They never cited ground three in it's opinion presumably because
they accepted the state's theory. (See appendix D)
On April 21st 2020 the Orange County Circuit Court denied the request to
strike and amended motion for reconsideration. They cited the issue is collaterally
estopped from being relitgated again, the trial court has the authority to rule on the
motion or not, and the theory that the motion did not get ruled on. The petitioner is
now proceeding forth with the theory the motion did not get ruled on. (See appendix
C)
Fla. Stat. 924.051 (l)(b) should be declared unconstitutional on it's face. This
statute is in conflict with the U.S. Const. 14th Amend, and the Fla. Const. Art. I § 9
right to due process as not ruling on a motion who's contents are related to a
material issue at trial is an abuse of discretion. The fact that this level of abuse of
discretion is not preserved for appellate review is an injustice this court is obligated
to correct. "To be preserved the issue or legal argument must be raised and ruled on
by the trial court." (Fla. Stat. 924.051 (l)(b))
"A party's failure to obtain a ruling on a motion fails to preserve the issue for
appellate review." (Simpson v. State 3 So. 3d 1135 FSC 2009)
"The failure of a party to get a timely ruling by a trial court constitutes a
waiver of the matter for appellate purposes." (Rhodes v. State 986 So. 2d 501 FSC

8

2008)
The next few case laws all state not ruling on a motion is an abuse of
discretion. The contents of these motions were not as material to the issue at hand
as they are in the instant case. "The court's failure to rule upon the motion to
amend was tantamount to denial of the motion, which was an abuse of discretion."
(Skilled Services Corporation v. Reliance Insurance Company 763 So. 2d 1092 4th
DCA1999)
"We hold that it was an abuse of discretion to deny Kimball leave to amend by
failing to rule on her motion prior to granting summary judgment." (Kimball v.
Publix Supermarkets 901 So. 2d 293 2nd DCA 2005)
"Failure to consider and rule on significant pre-trial motions before issuing
dispositive orders can be an abuse of discretion." (Chudasama v. Mazda Motors
Corporation 123 F. 3d 1353 USCA 11th Cir. 1997)
"The district court's failure to rule on the motion to compel circumvented the
policy underlying discovery in cases in which a summary judgment motion is filed."
(Snook v. Trust Company of Georgia Bank 859 F. 2d 865 USCA 11th Cir. 1988)
"The failure to rule on a motion to appoint counsel, require a remand. On
remand, a district court should clearly indicate its disposition of the request for
appointment and its basis for that disposition." (Willis v. Federal Bureau of
Investigation 1999 US App Lexis 7354 USCA DC Cir. 1999)
If not ruling on a motion for new trial is grounds for a new sentencing

9

proceeding then not ruling on a "pre-trial" motion who's contents are related to a
material issue at trial is grounds for a new trial. Instructions should be sent to the
trial court to vacate every action taken after the error by the judge occurred.
"Failure to rule on a motion for new trial prior to sentencing constitutes an error
patent and necessitates that the sentence be vacated." (Williams v. Goodwin 2017
U.S. Diet. Lexis 180654 USDC 5th Cir. 2017)
"A state court's failure to rule on a motion for reconsideration is a denial of a
habeas petitioner's due process rights." (Simmons v. Schriro 187 Fed. Appx. 753
USCA 9th Cir. 2006)
"The due process clause grants an aggrieved party the opportunity to present
his case and have it's merits fairly judged." (Logan v. Zimmerman Brush Company
455 US 422, 71 L Ed 2d 265, 102 S Ct 1148 USSC 1982)
The first point the Orange County Circuit Court made in it's denial of the
request to strike and amended motion for reconsideration is that they had the
authority to not rule on the motion. This argument fails for several reasons. The
trial judge actually says he will issue a ruling on the motion before the venire is
brought in. (TT 16) Roughly five minutes pass then at 10:13am the venire is
brought in and the judge chooses to start trial blatantly disregarding it. (TT 18)
Furthermore, trial counsel states there were newer facts that were previously
unknown at the time of the motion to suppress hearing on April 25th 2017. The
facts about the name, date, dose, and time of medications the petitioner was given

10

the day of the statement to detectives were contained in a second set of medical
records.. (TT 2-3, 470, See appendix F and G) Even beyond this assertion there were
undisclosed facts that due to trial counsel's negligence were not discovered until
after he received both sets of medical records after he came to prison. These medical
records included notes from medical professionals about the petitioner's state of
mind as well as being housed in the intensive care unit at the time of the interview.
(See appendix H) Furthermore, the state put forth the theory that the motion never
got ruled on. (See appendix E) The petitioner asserts the motion did get ruled on but.
was missing from trial transcripts on ground three of the petition for writ of habeas
corpus submitted to the Fifth District Court of Appeal on June 21st 2019. On
January 17th 2020 the Fifth District Court of Appeal did not reference ground three
in it's denial with authored opinion. (See appendix D) The trial court is assuming
the theory that the motion never got ruled on is correct. (See appendix C) All of
these facts were previously unknown to the petitioner until after trial. Therefore,
the court was obligated to issue a ruling on the motion for reconsideration
submitted on July 13th 2017 or the request to strike and amended motion for
reconsideration submitted on March 11th 2020. "The motion to suppress shall be
made before trial unless opportunity therefore did not exist or the petitioner was
not aware of the grounds for the motion." (Fla. R. Crm. P. 3.190(h)(3))
The second point the Orange County Circuit Court made in it's denial of the
request to strike and amended motion for reconsideration is that the issue is

11

collaterally estopped from being relitigated again as it was previously litigated on
direct appeal. There are numerous problems with this assertion. First the contents
of the motion for reconsideration were never mentioned in appellate counsels
Ander's brief. (See appendix F) Second there are numerous factual assertions and
case laws in support of those facts that were never even mentioned in his Ander's
brief. This court is directed to ground one of the petition for writ of habeas corpus
that was submitted to the Fifth District Court of Appeal on June 21st 2019. This
court is directed to the Ander's brief appellate counsel submitted to compare the
arguments.. (See appendix I) Counsel did not argue anything resembling the issue
in it's correct form Therefore, collateral estoppal by default does not apply to this
situation because the issue was never litigated properly in the first place.
This court does have the authority to compel the trial court to rule on the
amended motion for reconsideration so the Fifth District Court of Appeal can review
the contents of the issue in a new belated direct appeal if it denies the motion. The
issue would then be properly preserved for direct appeal. "1 conclude that the trial
court should be directed to rule on the motion to depose. The majority correctly
recognizes that the failure of the trial court to rule on this motion presents a
current impediment for this court to review the claim, but then, strangely does not
direct the trial court to remove this obstacle. Thus, the failure of the trial court to
rule on the motion to depose was likely an oversight, which supports that the trial
court should be directed to rule on the motion." (Justice Lewis Dissent) (Rhodes v.

12

State 986 So. 2d 501 FSC 2008)
REASONS FOR GRANTING THIS PETITION
The petitioner was not provided with the prerequisites necessary to invoke
the Florida Supreme Court's discretionary jurisdiction. The Fifth District Court of
Appeal did not issue an opinion in it's denial or provide any express language
needed to declare a state statute invalid and certify conflict with other Florida case
laws citing this to be an abuse of discretion and due process violation. Therefore,
certiorari review of the United States Supreme Court is the only possible remedy.
"May review any decision of a district court of appeal that expressly declares valid a
state statute, or that expressly construes a provision of the state or federal
constitution, or that expressly and directly conflicts with a decision of another
district court of appeal or the Florida Supreme Court on the same question of law."
(Fla. Const. Art. V § 3(b)(3))
This honorable court should grant review of this case to ensure the
legislature is making Florida Statutes that are clear and apply to all potential
situations that can possibly fall under that statute. This honorable court should
grant review of this case to allow for these types of issues to be preserved for
appellate review by default. This honorable court should grant review of this case to
compel trial judges to issue rulings on all motions regardless of how material the
issues are to a hearing or trial. This honorable court should grant review of this
case to ensure the due process rights of the accused are satisfied when it comes to

13

issuing rulings on motions who's contents are essential to a fair trial.
CONCLUSION
This petition for writ of certiorari should be granted. This request is made in
good faith. The petitioner swears the facts contained in this petition for writ of
certiorari are true and correct.

<0> /7fyrfry\
David P. Moran X97428
Pro se Litigant

Date:

, 2020.

14

